IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 19-351
FEDERAL REPUBLIC OF GERMANY, ET AL., PETITIONERS
v.
ALAN PHILIPP, ET AL.
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
_______________
MOTION OF THE UNITED STATES FOR LEAVE TO
PARTICIPATE IN ORAL ARGUMENT AS AMICUS CURIAE
AND FOR DIVIDED ARGUMENT
_______________
Pursuant to Rules 28.4 and 28.7 of this Court, the Solicitor
General, on behalf of the United States, respectfully moves for
leave to participate in the oral argument in this case as amicus
curiae supporting petitioners and requests that the United States
be allowed ten minutes of argument time.

Petitioners have agreed

to cede ten minutes of argument time to the United States and
therefore consent to this motion.
This case presents the question of whether the expropriation
exception in the Foreign Sovereign Immunities Act of 1976 (FSIA),
28 U.S.C. 1605(a)(3), applies to claims that a foreign sovereign

2
has seized the property of its own nationals as part of a humanrights violation.

The case also presents the question of whether

a court may invoke the doctrine of international comity to abstain
from exercising jurisdiction under the FSIA.
held

that

the

extraterritoriality

The court of appeals

exception

applies

to

respondents’ claim that Germany confiscated the property of its
own nationals as part of a genocide, and it further held that the
district court could not abstain from exercising jurisdiction
based on the doctrine of international comity.

Pet. App. 6-17.

The United States has a substantial interest in the resolution
of the questions presented because the application of the FSIA has
implications with respect to the United States’ relations with
other sovereigns and the treatment of the United States in foreign
courts.

At the Court’s invitation, the Solicitor General filed an

amicus brief on behalf of the United States at the petition stage
of this case.

The United States has also filed a brief as amicus

curiae at the merits stage.

That brief, supporting petitioner,

contends that the court of appeals erred in holding that the
expropriation exception applies to respondents’ claims and in
holding that a court may not invoke the doctrine of international
comity to abstain from exercising jurisdiction in an FSIA case.
The United States has previously presented oral argument as
amicus

curiae

in

cases

application of the FSIA.

concerning

the

interpretation

and

E.g., Opati v. Republic of Sudan, 140 S.

Ct. 1601 (2020); Republic of Sudan v. Harrison, 139 S. Ct. 1048

3
(2019); Rubin v. Islamic Republic of Iran, 138 S. Ct. 816 (2018);
Bolivarian

Republic

of

Venezuela

v.

Helmerich

&

Payne

Int’l

Drilling Co., 137 S. Ct. 1312 (2017); OBB Personenverkehr AG v.
Sachs, 136 S. Ct. 390 (2015); Republic of Argentina v. NML Capital,
Ltd., 134 S. Ct. 5 2250 (2014); Samantar v. Yousuf, 560 U.S. 305
(2010). The United States’ participation in oral argument is
therefore likely to be of material assistance to the Court.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
OCTOBER 2020

